                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

  Case Number: A09060048                                                                      Page 1 of 1




           010 received an allegation that an NSF employee 1 used NSF frank/penalty envelopes for
           perso~al use. We interviewed the employee, who acknowledged she used the envelopes
           occasionally for personal use. Our report of investigation recommended that NSF take
           appropriate action to address the employee's behavior.

           NSF reviewed our report, concurred with its statements, and held an oral admonishment
           discussion with the employee?

           This memo and the attached report of investigation constitute the case closeout. Accordingly, this
           case is closed.




           2




  NSF OIG Form 2 (11102)


--"""------~~~              .......   --~------~-~-------------..:...---------
CONFIDENTIAL                                                                            CONFIDENTIAL




      National Science Foundation
        Office of Inspector General




                       Confidential
                  Report of Investigation
                 Case Number A09060048
                          17 November 2009


                                                                      .                    .
 This Confidential Report of Investigation is the propertY of the NSF OIG and may be disclosed outside
      NSF only by OIG under the Freedom of Information and Privacy Acts,S U.S.c. §§ 5~2, 552a.

                                                                                  NSF OIG Form 22b (11/06)
                                 REPORT OF INVESTIGATION


                                              Summary

This investigation involves a National Science Foundation (NSF) employee' alleged to have used
NSF frank/penalty envelopes for personal use. During an interview, the employee acknowledged
she used the envelopes occasionally for personal use. Specifically, she said she used the
envelopes to send 2008 inauguration information to people she thought would be interested. The
NSF Office ofInspector General (OIG) identified a violation of current NSF policies.

                                       Governing Regulations

According to 5 C.F.R. § 2635.704 (tab 4):

                 An employee has a duty to protect and conserve Government property and
                 shall not use such property, or allow its use, for other than authorized
                 purposes ... (1) Government property includes any form of real or personal
                 property in which the Government has ownership ... as well as any other
                 right or other intangible interest that is purchased with government funds ..
                     .[T]he term includes office supplies, telephone and other
                 telecommunications equipment and other services, [and] the Government
                 mails ...

Furthermore, 45 C.F.R. § 5301.101 (tab 5) states that: "In accordance with 5 C.F.R. § 2635.105,
the regulations in this part apply to the employees of the National Science Foundation (NSF) ... "

Finally, 18 U.S.c. § 1719 (tab 6) provides that:

                Whoever makes use of any official envelope, label, or endorsement
                authorized by law, to avoid the payment of postage or registry fee on his
                private letter, packet, package, or other matter in the mail, shall be fined
                under this title.

                                         OIG Investigation

NSF OIG received an anonymous allegation that an NSF employee was using NSF frank/penalty
envelopes for personal use.

NSF OIG interviewed2 the employee about the allegation. Prior to the interview OIG provided the
employee with a Garrity Warning3 and with a statement of Weingarten Rights,4 both of which she




2   Tab I - Memorandum of Investigation (MOl) - Interview of subject, dated April 6, 2009.
read and signed. During the interview, the employee said she used NSF frank/penalty envelopes
during and after January 2009 to send news articles to persons "interested in NSF." She first said
the articles discussed educational projects.         After additional questions, the employee
acknowledged she sent information regarding the 2008 Presidential inauguration "to people who
would be interested in it," and to those who "didn't get the articles in their own papers." She was
unable to recall how often she used the envelopes or how many she used, but she offered to pay
for them. Due 'to the unspecific anonymous allegation, we are unable to determine how many she
used.

The employee said she was familiar with NSF's policy for use of government equipment and had
attended numerous ethics seminars. 5 She said her entire division has access to the frank/penalty
envelopes and she did not know if others in her office use the envelopes improperly.

At the conclusion of the interview, OIG offered the employee the opportunity to provide a written
statement; she declined the offer.

                                         OIG Analysis

Based on the information contained in this report and the employee's own admission, OIG
concludes the employee improperly used frank/penalty envelopes for personal use. When
questioned directly regarding how many times· she used the envelopes, the employee would or
could not provide an exact number or estimate. We are, therefore, unable to determine the amount
of her envelope usage and/or whether she used any envelopes prior to January 2009, which she
denies.
                                                                                                      I
                                        OIG Conclusions

By using frank/penalty envelopes for personal use, the employee violated NSF's Personal Use
Policy6 by engaging in an inappropriate use expressly cited in 45 C.F .R. § 5301.101. In addition,
she appears to have violated 18 U.S.C. § 1719. However, due to the insufficient amount of
evidence to quantifY her use, we have not pursued a prosecutorial remedy.




3 Tab 2 - Garrity Warning signed by subject. This written warning advised the subject that she
did not have to reveal information that might incriminate her (i.e., result in a criminal action
against her).
4 Tab 3 - Weingarten Warning signed by subject. This written warning advised the subject that
she had the option of requesting a union representative be present during the interview.
S The         completed the required ethics training the past 4 years:

6 Personal Use of NSF's Technology and Communication Resources, NSF Bulletin 04-11, dated
November 3, 2004


                                                2
                                   OIG Recommendations

In reference to the conclusions outlined above, we recommend that the NSF proceed with
administrative actions that are appropriate and consistent with previous similar incidents. 7




7 We note that NSF Manual 15, Conflicts of Interest and Standards of Ethical Conduct, lists 18
U.S.C. 1719 as among the statutory prohibitions related to its application (NSF Manual 15,
Appendix). We recommend, therefore, that management coordinate with the Office of General
Counsel regarding appropriate resolution of this matter.


                                              3
